TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Staff Reductions in Support Operations
                   Did Not Result in Significant Increases in
                           Mission Critical Positions



                                      September 28, 2006

                              Reference Number: 2006-10-175




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 28, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Staff Reductions in Support Operations Did Not
                                Result in Significant Increases in Mission Critical Positions
                                (Audit # 200510036)

 This report presents the results of our review of whether positions identified in the Resource
 Optimization Study had been reallocated to front-line positions and whether the Internal Revenue
 Service (IRS) complied with the requirements of the Voluntary Early Retirement Authority
 (early retirements)1 and the Voluntary Separation Incentive Payment authority (buyouts)2 used to
 release the identified positions.

 Impact on the Taxpayer
 In 2002, the IRS Commissioner directed senior executives to reduce the number of human
 resource positions and to consolidate support operations as part of the effort to provide more
 front-line service and enforcement positions. The IRS reduced its support positions as planned;
 however, it did not consistently follow the rules and procedures associated with early retirements
 and buyouts for the support positions. As a result, the IRS may be at risk of not receiving future
 buyout authority, which could limit its ability to restructure its workforce to meet future
 priorities of Congress and taxpayers.




 1
     5 U.S.C. Sections (§§) 8336(d)(2) and 8414(b)(1)(B) (2004) and 5 C.F.R. §§ 831.114 and 842.213 (2006).
 2
     5 U.S.C. §§ 3521 through 3525 (2004) and 5 C.F.R. § 576 (2006).
                         Staff Reductions in Support Operations Did Not Result in
                            Significant Increases in Mission Critical Positions



Synopsis
In 2002, the IRS decided to reduce the number of its human resource positions and to consolidate
some of its support operations. The IRS determined that 741 Full-Time Equivalents (FTE)3
could be eliminated from its Headquarters and field offices. Most of this reduction would come
from the personnel functions within the newly created Human Capital Office, the Office of
Agency-Wide Shared Services, and the Small Business/Self-Employed Division. In 2003, the
IRS submitted its plan to implement the Resource Optimization Study recommendations to the
Office of Personnel Management (OPM), to obtain approval to offer early retirements and
buyouts to employees as an incentive to voluntarily retire or resign. This was just one part of a
series of initiatives the IRS intended to use to realign approximately 12,000 positions to front-
line tax professional positions over the following 2 years. The OPM approved the IRS’ plan,
allowing it to offer early retirements and buyouts through 2005. A subsequent request extended
the authorities through December 2006.
Through the use of early retirements, buyouts, normal attrition, placements elsewhere, and
involuntary separations,4 the IRS was able to meet its desired reduction of human resource
positions. However, the IRS does not track vacated and reassigned individual positions.
In addition, while we did not review the other IRS initiatives involved in the effort to reassign
12,000 positions to the front-line, we determined the number of employees in mission critical
positions5 increased by only 1,216 (from Fiscal Years 2003 to 2005), far short of the goal the IRS
documented in its request to the OPM. We did not determine why the IRS did not achieve its
goal.
In its plan submitted to the OPM, the IRS cited specific benefits that would be realized if it
received authorization to offer early retirements and buyouts. The plan indicated the IRS would
save an average of $2,746 per employee. However, the Human Capital Office did not prepare
any analysis to determine the total costs of, or any savings associated with, offering the early
retirements and buyouts.
After the IRS was granted the early retirement and buyout authorities, it did not formally assign
responsibility for overseeing the reorganization to any single office or individual. As a result, no
one was responsible for monitoring the Resource Optimization Study to ensure the benefits
outlined in the plan to the OPM, such as the realignment of staff to mission critical positions and
cost savings, were actually achieved.
3
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For FY 2005, 1 FTE was equal to 2,088 hours. For purposes of this report, we are using the
terms FTEs, employees, and positions synonymously.
4
  An involuntary separation is any separation against the will and without the consent of the employee, other than for
misconduct or delinquency. The most common cause for an involuntary separation is a reduction in force.
5
  The IRS uses the term mission critical occupations to define occupations deemed critical to front-line operations as
well as those occupations that provide direct support to front-line operations. Mission critical positions are specific
positions within those occupations.
                                                                                                                     2
                           Staff Reductions in Support Operations Did Not Result in
                              Significant Increases in Mission Critical Positions



When a Federal Government agency is given the authority to use early retirements and buyouts,
certain laws and regulations must be followed. The IRS was not consistent in following those
requirements. As a result, buyouts were given to some employees whose positions were not
included in the plan approved by the OPM; some additional early retirement and buyout offers
were made after employees had already received notices of a final offer; some employees were
separated from the IRS after the established off-rolls deadlines; and, while not in conflict with
any laws or regulations, buyouts were given for positions in some continuing locations6 which
led to the IRS having to hire new employees to fill those positions.

Recommendations
We recommended the Deputy Commissioner for Operations Support require that the Chief
Human Capital Officer monitor and report on the progress of any IRS reorganization initiative,
including how effective the IRS has been in achieving any proposed reductions or staffing
realignments. In addition, the Chief Human Capital Officer should work with the Chief
Financial Officer as well as the affected business and functional units to identify and track all
costs incurred and any savings realized. Finally, the Chief Human Capital Officer should
establish controls to ensure the business and functional units follow all early retirement and
buyout rules and regulations.

Response
The Chief Human Capital Officer agreed with our recommendations and proposed corrective
actions to address the problems identified in the report. These actions include the establishment
of the Organizational Change Program Office to monitor all reorganization initiatives. The
Office will collect data on all IRS initiatives and use the information collected to report on the
effectiveness of IRS reorganizations. In addition, the Chief Human Capital Officer will partner
with the Chief Financial Officer to monitor FTEs using a financial report created by the Chief
Financial Officer and completed by the business unit(s). Lastly, the Chief Human Capital
Officer will issue procedures to remind organizations and support functions that employees may
separate with a buyout only if they are officially assigned to one of the positions identified on the
OPM-approved buyout list and will issue guidance on buyout solicitations with fixed off-rolls
dates in accordance with OPM guidance. Management’s complete response to the draft report is
included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.


6
    These are locations not targeted for elimination as part of the Resource Optimization Study.
                                                                                                    3
                            Staff Reductions in Support Operations Did Not Result in
                               Significant Increases in Mission Critical Positions




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Support Positions Were Reduced, but the Human Capital Office Could
          Not Determine If They Were Realigned As Planned or Anticipated
          Cost Savings Were Achieved........................................................................Page 2
          The Internal Revenue Service-Wide Initiative to Increase Mission
          Critical Positions by 12,000 Has Not Occurred............................................Page 4
                    Recommendation 1:........................................................Page 6

          Early Retirement and Buyout Rules and Procedures Were Not
          Followed Consistently ..................................................................................Page 7
                    Recommendation 2:........................................................Page 11


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 18
        Staff Reductions in Support Operations Did Not Result in
           Significant Increases in Mission Critical Positions




                    Abbreviations

AWSS            Agency-Wide Shared Services
FTE             Full-Time Equivalent
FY              Fiscal Year
GS              General Schedule
IRS             Internal Revenue Service
OPM             Office of Personnel Management
RIF             Reduction in Force
TIMIS           Treasury Integrated Management Information System
VERA            Voluntary Early Retirement Authority
VSIP            Voluntary Separation Incentive Payment
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions




                                            Background

In 2002, the Internal Revenue Service (IRS) Commissioner directed senior executives to reduce
the number of human resource positions and to consolidate support operations. The IRS
conducted a Resource Optimization Study of human resources support and determined
741 Full-Time Equivalents (FTE)1 could be eliminated from its Headquarters and field offices.
Most of this reduction (698 positions) would come from personnel functions within the newly
created Human Capital Office (330 positions), the Office of Agency-Wide Shared Services
(AWSS) (313 positions), and the Small Business/Self-Employed Division (55 positions).2 The
restructuring of all the affected offices was scheduled to be completed by October 2005.
In November 2003, the IRS submitted its plan to implement the Resource Optimization Study
recommendations to the Office of Personnel Management (OPM). Reductions resulting from
implementation of this Study were just one of a series of initiatives3 the IRS intended to use to
realign approximately 12,000 positions to front-line tax professional positions over the following
2 years. In this audit, we reviewed only the Resource Optimization Study initiative. The initial
plan allowed the IRS to offer early retirements (Voluntary Early Retirement Authority [VERA] 4)
and buyouts (Voluntary Separation Incentive Payments [VSIP]5) through December 2005. A
subsequent request to extend those authorities through December 2006 was also approved.
This review was performed at the IRS National Headquarters in Washington, D.C., in the office
of the Chief Human Capital Officer, the Office of AWSS, and the Small Business/
Self-Employed Division during the period October 2005 through July 2006. The audit was
conducted in accordance with Government Auditing Standards. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




1
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2005, 1 FTE was equal to 2,088 hours. For purposes of this report, we are
using the terms FTEs, employees, and positions synonymously.
2
  The remaining 43 (5.8 percent) of 741 positions were to come from 7 other operational units.
3
  Other major projects for which the IRS had or was requesting Voluntary Early Retirement Authority and Voluntary
Separation Incentive Payment authority involved (1) competitive sourcing, (2) submission processing consolidation,
(3) reengineering, (4) area distribution centers, and (5) mailrooms.
4
  To retire early under the VERA, an employee must be at least age 50 with 20 years of creditable service or any age
with 25 years of creditable service. 5 U.S.C. Sections (§§) 8336(d)(2) and 8414(b)(1)(B) (2004) and
5 C.F.R. §§ 831.114 and 842.213 (2006).
5
  Payments made under the VSIP authority are limited to the lesser of the employee’s calculated severance or an
amount determined by the agency head not to exceed $25,000. 5 U.S.C. §§ 3521 through 3525 (2004) and
5 C.F.R. § 576 (2006).

                                                                                                           Page 1
                         Staff Reductions in Support Operations Did Not Result in
                            Significant Increases in Mission Critical Positions




                                       Results of Review

Support Positions Were Reduced, but the Human Capital Office Could
Not Determine If They Were Realigned As Planned or Anticipated Cost
Savings Were Achieved

Staff reductions were achieved
The IRS met its objective of reducing human resource positions as part of the Resource
Optimization Study. By the end of October 2005, the Human Capital Office and the affected
divisions within the Office of AWSS had reduced their total staffs from 2,424 to
1,727 employees (a decrease of 697) through the use of early retirements, buyouts, normal
attrition, placements elsewhere in the IRS, and involuntary separations.6 The Small
Business/Self-Employed Division Communications and Liaison function7 decreased by
55 positions, bringing the total reductions for these 3 organizations to 752.
As a result of the Resource Optimization Study, personnel activities performed in various units
were to be consolidated. In December 2003, the Strategic Human Resources Division was a
relatively small organization, with just 270 employees primarily responsible for policy matters.
The Office of AWSS, however, had over 4,700 employees and covered many diverse areas such
as personnel issues, hiring, procurement, and real estate and facilities management. In
February 2004, the Human Capital Office officially replaced the Strategic Human Resources
Division and took over some of the personnel activities previously performed by the Office of
AWSS. New divisions within the Human Capital Office were established and reporting lines
changed. As some of the functions within the Office of AWSS moved to the Human Capital
Office, other remaining functions, such as payroll and equal employment opportunity operations,
were reduced.
Figure 1 shows the Strategic Human Resources Division and the personnel sections of the Office
of AWSS that were to be reduced or consolidated into the new Human Capital Office as of
December 2003.




6
  An involuntary separation is any separation against the will and without the consent of the employee, other than for
misconduct or delinquency. The most common cause for an involuntary separation is a reduction in force.
7
  This function is now called Communications, Liaison, and Disclosure.

                                                                                                             Page 2
                                      Staff Reductions in Support Operations Did Not Result in
                                         Significant Increases in Mission Critical Positions



     Figure 1: Organizational Structure Before the Resource Optimization Study;
                      Total Staff – 2,424 As of December 2003
                            Strategic Human Resources (14)                                                  Agency-Wide Shared Services
                                       Total 270                                                          (Affected Areas Only) Total 2,154


           Program Integration                            Executive Services       Personnel Operations Area A                          Personnel Operations Area B
                  (22)                                           (18)                         (396)                                                (433)


         Career Management and                    Leadership and Organizational    Personnel Operations Area C                        Personnel Field Services Division
            Recruitment (17)                           Effectiveness (67)                     (315)                                                 (125)


           Workforce Planning                     Personnel Policy and Programs        Centralized Activities                        Equal Employment Opportunity and
                                                                                               (121)                                   Diversity Field Services (229)
                  (6)                                     Division (41)

                                                                                  Transactional Processing Centers
          Workforce Relations                           Learning and Education                  (535)
                 (15)                                            (70)

    Source: IRS Treasury Integrated Management Information System (TIMIS)8 Reports dated December 27, 2003.

At the end of October 2005, the restructuring based on the Resource Optimization Study had
been completed, resulting in the organizational structure shown in Figure 2.
                    Figure 2: Organizational Structure After Implementation of the
                                   Resource Optimization Study;
                                Total Staff – 1,727 As of October 2005
                             Human Capital Office (4)                                                           Agency-Wide Shared Services
                                  Total 1,293                                                                  (Affected Areas Only) Total 434


      Deputy Human Capital Office                  Organizational Change                  Payroll Processing                         Equal Employment Opportunity and
                 (3)                                        (3)                                 (248)                                  Diversity Field Services (186)


       Human Capital Planning &                   Human Capital Resources
           Measures (12)                             Management (33)


     Talent, Hiring and Recruitment                     Executive Services
                  (698)                                        (17)


        Workforce Retention and                   Leadership and Education
            Transition (60)                                 (87)


          Workforce Relations
                (376)

    Source: IRS TIMIS Reports dated October 29, 2005.

While the IRS was able to achieve its desired reduction in human resource support positions, it
could not tell us how many of those positions had been reinvested into front-line compliance and
customer support activities. In addition, it could not tell us what savings were achieved by
offering early retirements and buyouts.




8
 The TIMIS is the automated personnel and payroll system for storing and tracking all employee personnel and
payroll data.

                                                                                                                                                                   Page 3
                         Staff Reductions in Support Operations Did Not Result in
                            Significant Increases in Mission Critical Positions



Actual cost savings of buyouts have not been determined
In its plan to the OPM, the IRS justified its need for early retirement and buyout authorities by
citing specific benefits that would be realized. The plan indicated allowing the IRS to use early
retirement and buyout authorities would result in an average cost savings of $2,746 per
employee, or about $2 million, as it applies to the Resource Optimization Study (741 employees
@ $2,746 = $2,034,786). However, the Human Capital Office staff did not prepare any analysis
to determine the total costs incurred during the Resource Optimization reorganization process or
to determine if the use of the early retirement and buyout authorities resulted in any cost savings.

The Internal Revenue Service-Wide Initiative to Increase Mission
Critical Positions by 12,000 Has Not Occurred
While the IRS was able to meet its goal of decreasing human resource positions, the Human
Capital Office staff could not demonstrate how much of the savings realized by decreasing
support functions were reinvested and resulted in an increase to mission critical positions. After
the IRS was granted the early retirement and buyout authorities, it did not formally assign
responsibility for overseeing the reorganization to any single office or individual. None of the
three units we reviewed tracked the realignment of released positions. While some units tracked
expenses, they did not take into account all of the costs associated with offering early retirements
and buyouts to employees. As a result, no one had the accountability or responsibility for
ensuring the benefits expected from the reorganization, early retirements, and buyout authority
were being achieved, and no one was responsible for tracking the reallocation of positions to
mission critical positions.
We analyzed IRS records and were able to determine the number of IRS employees in mission
critical positions9 increased by about 2 percent (1,216 employees) between October 2003 and
October 2005, while the total number of IRS employees decreased by over 2,000 during the
same period. Although the total number of employees in mission critical positions increased
overall, staffing actually decreased in some occupations. Figure 3 shows the staff changes that
occurred in the affected mission critical positions between October 2003 and October 2005.




9
 The IRS uses the term mission critical occupations to define those occupations it deems critical to front-line
operations within the operating divisions as well as those occupations that provide direct support to front-line
operations. Mission critical positions are specific positions within those occupations.

                                                                                                               Page 4
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions



                  Figure 3: Number of IRS Employees in Mission Critical
                           General Schedule (GS) Occupations
                      Occupation                     October      October       Increase/     Percentage
                                                      2003         2005        (Decrease)
       Economist (GS-110)                                  174           189            15          8.6%
       Revenue Agent (GS-512)                           12,206        12,768           562          4.6%
       Tax Specialist, Tax Compliance Specialist,        3,974         3,727         (247)        (6.2%)
       Tax Resolution Representative (GS-526/598*)
       Tax Examiner (GS-592)                            12,717        12,484         (233)        (1.8%)
       Engineer (GS-801, 830, 850, 880, 881, 896)          289           287            (2)       (0.7%)
       Appeals Officer (GS-930)                            951           853          (98)       (10.3%)
       Customer Service Representative (GS-962)         11,439        12,628         1,189         10.4%
       Tax Law Specialist (GS-987)                         306           281          (25)        (8.2%)
       Revenue Officer, Settlement Officer               5,533         5,654           121          2.2%
       (GS-1169)
       Special Agent (GS-1811)                           2,797         2,830             33         1.2%
       Computer Specialist (GS-2210/334*)                4,970         4,871           (99)         (2%)
       Total Mission Critical Occupation Positions      55,356        56,572          1,216         2.2%
       Total Number of IRS Employees                    94,479        92,341        (2,138)       (2.3%)
       Percentage of Mission Critical Positions to        59%           61%
       Total
        Source: TIMIS reports of employees in pay status as of October 4, 2003, and October 1, 2005, and
        list of Mission Critical Occupations.
      * The second series is currently obsolete but is listed for historical purposes.

The total increase was significantly less than the 12,000 positions that were documented as part
of the IRS’ justification for requesting early retirement and buyout authorities. The IRS
Commissioner had hoped the savings realized from the reduction of support functions, as well as
the savings from the other initiatives, would be reinvested in front-line tax professional positions
and increase the number of mission critical employees by 12,000.
While we did not determine the reason the IRS did not achieve its goal, senior IRS officials
informed us that Congressionally mandated pay raises, along with recent budget constraints, had
limited the IRS’ ability to hire more personnel. While we did not substantiate or validate that
information, the IRS Oversight Board10 stated in a Fiscal Year (FY) 2005 report,11 “The IRS
needs a realistic budget that recognizes and provides for the anticipated expenses it will incur,
such as congressionally-mandated[sic] pay raises, inflation and rent increases. By not fully
funding these costs, the IRS will be challenged yet again to make other cuts to pay for them.”
The Board was concerned the FY 2005 appropriations and the amount of funding that the
Administration was requesting for FY 2006 were forcing the IRS to consider cuts in customer




10
   The IRS Oversight Board is a nine-member independent body charged with providing the IRS with long-term
guidance and direction.
11
   IRS Oversight Board’s March 2005 Special Report: FY 2006 IRS Budget.

                                                                                                           Page 5
                         Staff Reductions in Support Operations Did Not Result in
                            Significant Increases in Mission Critical Positions



services such as closing some Taxpayer Assistance Centers12 and reducing hours assistors are
available on the IRS toll-free telephone lines.
For the past 13 years, Congress has mandated pay raises that have exceeded the amounts
proposed by the Administration. The IRS’ unfunded pay raises alone totaled over $100 million
in both FYs 2004 and 2005. In light of these facts, the IRS should be prepared for the possibility
of future unfunded mandates. With limited ability to move funds,13 tight budgets, and unfunded
mandates, the IRS’ expectation to realign 12,000 positions may have been unrealistic.
Much like any other project, oversight of a major reorganization should be structured and
disciplined. The Office of Management and Budget Circular A-123, Management’s
Responsibility for Internal Control, stresses the importance of being able to communicate
information to relevant personnel at all levels within an organization and that the information
should be relevant, reliable, and timely. We believe the Chief Human Capital Officer should
monitor and report on whether a reorganization meets the costs/benefits projected as well as
whether goals are met for any reduction in or reallocation of positions. The Chief Human
Capital Officer will need to work cooperatively with the Chief Financial Officer and the business
and functional units involved but should ultimately be responsible for advising the IRS
Commissioner of the overall success or failure of the initiative. In the case of any failure(s), the
Chief Human Capital Officer should determine the reasons for any problems encountered and
propose reasonable solutions to be employed in any future reorganization.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should require the
Chief Human Capital Officer to monitor and report on the progress of any IRS reorganization
initiative. The Chief Human Capital Officer should work with the Chief Financial Officer and
the affected business and functional units to identify and track all costs incurred and any savings
realized. The Chief Human Capital Officer also should report on how effective the IRS has been
in achieving any proposed reductions or staffing realignments.
        Management’s Response: IRS management agreed with this recommendation. The
        Chief Human Capital Officer has established the Organizational Change Program Office
        to monitor all reorganization initiatives. The Office will collect data on all IRS initiatives
        and use the information collected to report on the effectiveness of IRS reorganizations.
        In addition, the Chief Human Capital Officer will partner with the Chief Financial Officer
        to create a financial report that the business unit(s) will complete. The report will include


12
   Taxpayer Assistance Centers provide face-to-face assistance for taxpayers when they have complex tax issues,
need to resolve tax problems relating to their tax accounts, have questions about how the tax law applies to their
individual income tax returns, or feel more comfortable talking with someone in person.
13
   The Public Laws that contain the IRS appropriation have, for the last few years, limited the amount of money that
can be transferred from one appropriation to another to 3 percent or 5 percent, and any transfer requires advance
approval of the Congressional Committees on Appropriations.

                                                                                                            Page 6
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions



         initial cost projections, actual costs incurred throughout the initiative, and FTE
         considerations.

Early Retirement and Buyout Rules and Procedures Were Not
Followed Consistently
The plan the IRS submitted to the OPM included most of the information required by the
Homeland Security Act of 200214 for use of the early retirement and buyout authorities, including
the purpose and intent for the use of the authorities. Additionally, the IRS notified the OPM of
subsequent plan changes and provided interim reports as required for the initiative. However, we
identified some practices that were not compliant with the plan or the laws and regulations
governing use of the early retirement and buyout authorities. These deviations put the IRS at
risk of having the OPM modify or terminate its current authorities or, at a minimum, being
subject to stronger scrutiny on any additional requests for early retirement and buyout
authorities. Specifically:
     •   Forty-two buyouts were given to employees whose positions were not included in the
         plan approved by the OPM.
     •   Some additional early retirement and buyout offers were made after employees had
         already received notices of a final offer.
     •   Thirty-one employees were separated from the IRS after established off-rolls deadlines.
In addition, we determined some positions for which buyouts were provided were then filled
with new employees hired from outside the IRS. While current laws and regulations do not
prohibit this type of action, hiring a new employee to fill a position an experienced employee has
been paid to vacate is not a sound business practice.

Buyouts were given to employees not identified in the plan submitted to the OPM
Between January 14, 2004, and October 31, 2005, the IRS provided 408 buyouts to IRS
employees affected by the Resource Optimization Study. Forty-two (10 percent) of the
408 buyouts, totaling over $1 million, were given to employees in positions that were not
identified in the IRS’ approved plan.15 In some cases, buyouts were given to employees
occupying job series not identified in the plan; in other cases, buyouts were given to employees
who were not in the location(s) and/or the grade(s) specified in the plan. For example, the IRS


14
   Congress expanded the ability of agencies to use the VSIP authority through passage of the Chief Human Capital
Officers Act of 2002, which constitutes Title 13 of the Homeland Security Act of 2002 (Pub. L. No. 107-296,
§ 1313, 116 Stat. 2135, 2291-96 (2002) (codified as amended at 5 U.S.C. §§ 3521-25 [2000])). Title 13 of the
Homeland Security Act of 2002 may also be cited as the Chief Human Capital Officers Act of 2002,
Pub. L. No. 107-296, tit. 13, 116 Stat. 2135, 2287 (2002).
15
   See Appendix IV.

                                                                                                          Page 7
                         Staff Reductions in Support Operations Did Not Result in
                            Significant Increases in Mission Critical Positions



was trying to decrease the number of employees in its Transactional Processing Centers.16 The
plan to the OPM identified at least six positions found in those Centers, such as Human
Resources Specialists (GS-0201), Human Resources Assistants (GS-0203), and Mail and File
Clerks (GS-0305). However, buyouts also were provided to seven Civilian Pay Technicians
(GS-0544) who worked in the Centers. No Civilian Pay Technician positions were identified in
the original plan the IRS submitted to the OPM. An agency may offer only those buyouts
consistent with the plan approved by the OPM, and the OPM must be notified of any significant
changes to the plan.
The Human Capital Office suggested that the employees not identified in the plan may have been
employees in safe positions who had “job swapped”17 with employees whose positions were to
be eliminated. However, the OPM has stated that an agency’s plan also must identify safe
positions if the employees in those positions may agree to a job swap and be offered buyouts.

Announcements for early retirements and buyouts were issued after the final
offer dates
In August 2004, the Office of AWSS sent a notice to its employees that September 3, 2004, was
their last opportunity to accept an early retirement and/or buyout. The notice stated, “This will
be the only VERA/VSIP [authority] opportunity that will be offered to you so please make your
decision with that in mind.” However, to achieve the necessary reduction in positions, the Office
of AWSS made additional offers in April 2005 and August 2005.
Similarly, the Human Capital Office sent a notice to its employees in January 2005 stating, “This
is the last early out/buy out opportunity for you as an HCO [Human Capital Office] employee
directly impacted by the Resource Optimization Study. If you are not permanently placed or
volunteer for retirement, you will be subject to the RIF [Reduction in Force] separation
entitlements, e.g., severance pay. VERA/VSIP [authority] will not be available to you beyond
this offering.” The employees had until February 1, 2005, to accept the offer. However, in
August 2005, the Human Capital Office offered the same employees an additional opportunity to
accept early retirement and/or buyouts. This was done to give employees who were previously
thought to be in secure positions a final opportunity before they were involuntarily separated
from their jobs.
While multiple rounds of early retirement and buyout offers may be needed to achieve desired
staffing reductions (and they are permitted by regulation), OPM guidance states that agencies
should “. . . ensure that any employee who is potentially interested in separation by VSIP
[authority] and/or VERA has the complete and accurate information to make an informed
decision.”

16
   The Transactional Processing Centers handled processing of employee personnel actions. The function is now
called the Payroll Center.
17
   Job swapping allows an employee in a position not identified for elimination the opportunity to leave the IRS and,
if eligible, qualify for an early retirement and/or buyout by swapping jobs with an employee in a position that has
been identified for elimination.

                                                                                                             Page 8
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions



Based on the notices issued, employees were asked to make major life and career decisions in
relatively short time periods. Issuing another offer 7 months to 8 months after the reported final
offer gives the appearance that employees were not treated equitably. The employees who took
an early retirement or buyout based on the earlier notice may have made substantially different
decisions had they had an additional 7 months to 8 months to consider their options, seek other
employment, or possibly meet retirement eligibility criteria.
At the time the first “final” offers were made, there were still between 11 months and 16 months
remaining before expiration of the IRS’ early retirement and buyout authorities. The Human
Capital Office and Office of AWSS should have taken into account the possible need to make
additional offers to employees, before issuing offers indicating they were final.
In addition, the Human Capital Office incurred additional expenses by offering the last round of
buyouts. Employees had already received RIF notices, and, because most of the fiscal year had
passed (11 months of the 12 months in FY 2005), there was no apparent compelling need to offer
the last round of buyouts. The August 2005 last “final” offer cost the IRS over $328,000 when
14 employees left the IRS.18

Some employees separated after the off-rolls deadlines had passed
The memoranda sent to employees extending the early retirement and buyout offers included
dates within which employees had to apply for the offers, as well as dates by which the
employees had to be off the rolls and separated from the IRS. However, the Human Capital
Office and Office of AWSS allowed 24 employees and 7 employees, respectively, to separate
after the designated off-rolls dates.
The Human Capital Office and Office of AWSS staffs stated that it was acceptable to retain an
employee past a designated separation date if the action was taken on a case-by-case basis and
there was a business reason to do so. However, the OPM, responsible for implementing
regulations on early retirements and buyouts, has stated that an agency may not retain employees
past the designated separation date. Federal Government regulations19 require that, if an agency
establishes a new or revised early retirement period, the agency must announce the new period to
the same group of employees as included in the original announcement. The OPM has
interpreted the regulations for buyouts to be the same as those for early retirements.
The IRS also advised us it had an agreement with the National Treasury Employees Union to
extend the established off-rolls date on a case-by-case basis. However, the provisions of this
agreement are contrary to the OPM’s interpretation of the regulations, which are considered to be
Federal Government-wide regulations. The courts have ruled that when an agency administers a
program created by Congress, such as the OPM does for the early retirement and buyout
authorities, it can interpret the rules and create the policy of that program.20

18
   See Appendix IV.
19
   5 C.F.R. §§ 831.114(i) and 842.213(i) (2006).
20
   Chevron U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837 (1984).

                                                                                            Page 9
                       Staff Reductions in Support Operations Did Not Result in
                          Significant Increases in Mission Critical Positions



There is no authority for an agency, on an ad hoc basis, to keep an employee on the rolls beyond
the separation date contained in the agency’s official communications offering the early
retirement and/or buyout options. To do so would allow select employees to separate under
different terms than those available to other employees and would result in inequitable treatment.
Allowing select employees to remain after the separation date could also provide benefits to
those employees, such as additional unused annual leave for which separating employees are
paid that might not be available to employees separating within the designated separation period.

Some early retirements and buyouts led to additional hiring
During the restructuring of the Human Capital Office and Office of AWSS, new positions were
created, reporting lines changed, responsibilities shifted from one location to another, and work
units moved from one organization to another. Because of these changes, we were unable to
determine whether any new positions were created inappropriately.
However, for the period January 1, 2004, through September 30, 2005, we reviewed a list of the
508 newly hired employees, promotions, position changes, changes to a lower grade, and
reassignments for the areas in the Human Capital Office, Office of AWSS, and Small
Business/Self-Employed Division affected by the Resource Optimization Study. Newly hired
employees accounted for 44 of those personnel actions; the remaining actions affected existing
employees. We compared the 508 position changes to the positions identified for elimination as
part of the Resource Optimization Study and determined none of the positions identified for
elimination had been inappropriately filled as of September 30, 2005.
Most of the IRS buyouts resulted in positions being eliminated or vacated for another IRS
employee to occupy. However, while none of the positions identified for elimination were filled
with newly hired employees, we identified five instances in which the IRS’ use of buyouts in
continuing locations21 resulted in the need to hire new employees to fill those positions. The cost
to buy out the 5 employees was $125,000; the new employees were hired for the same locations,
in the same series, at the same grades, and with the same position descriptions as those
employees who took a buyout.22 Paying a current employee up to $25,000 to leave a position
that is subsequently filled by a newly hired employee is not a sound business practice.
The IRS offered widespread early retirements and buyouts to enable employees who occupied
positions that were not being eliminated under the Resource Optimization Study to take
advantage of the incentives, which would allow potentially displaced employees to move into
those positions instead of being involuntarily separated. The OPM handbook on offering
buyouts23 states, “Besides providing an incentive for employees in surplus positions to
voluntarily retire or resign to avoid potential reduction in force actions, the agency may also


21
   These are locations not targeted for elimination as part of the Resource Optimization Study.
22
   See Appendix IV.
23
   Restructuring Information Handbook, Module 10 - Voluntary Separation Incentive Payments, Unit B, Guidance
(October 2004 version).

                                                                                                     Page 10
                     Staff Reductions in Support Operations Did Not Result in
                        Significant Increases in Mission Critical Positions



offer VSIP to employees in safe positions that could then be placement opportunities for
employees holding surplus positions.”
Human Capital Office management informed us the Office had identified two of the five
instances mentioned above. As a result, in April 2004, the Human Capital Office instituted a
Vacancy Management process that required the Division Director and the Deputy Chief Human
Capital Officer to approve any hiring commitment. This process, however, ensured only that
there was adequate justification for and a business need to hire new employees. It did not ensure
buyouts were given only to those employees in positions (1) that were being eliminated or (2) in
which current employees who would otherwise be separated from the IRS could be placed.

Recommendation
Recommendation 2: The Chief Human Capital Officer should establish controls to ensure
the business and functional units consistently follow all early retirement and buyout rules and
regulations.
       Management’s Response: IRS management agreed with this recommendation. The
       Chief Human Capital Officer will issue Standard Operating Procedures to remind
       organizations and support functions that employees may separate with a buyout only if
       they are officially assigned to one of the positions on the OPM-approved list at the time
       of separation. In addition, the Chief Human Capital Officer will issue guidance on
       buyout solicitations with fixed off-rolls dates in accordance with OPM guidance.




                                                                                           Page 11
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether positions identified in the Resource
Optimization Study had been reallocated to front-line positions and whether the IRS complied
with the requirements of the VERA and the VSIP authority used to release the identified
positions. For some of the steps below, we obtained data generated from the TIMIS.1 Because
of time constraints and because the TIMIS is recognized as a Department of the Treasury system
of record, we did not conduct any data validation tests. To accomplish our objectives, we:
I. Determined whether the support positions that were to be eliminated through use of the
   VERA and VSIP authority were reallocated to front-line service and compliance positions.
        A. Obtained a list of the positions in the Resource Optimization Study that were
           identified and planned for transfer to front-line service and compliance positions.
        B. Contacted the offices of the Chief Human Capital Officer and the Chief Financial
           Officer to determine what methods were used to track the transfer or conversion of
           FTEs2 to front-line service and compliance positions. We determined whether the
           positions were transferred.
II. Determined whether the IRS complied with the VERA and VSIP authority approved by the
    OPM.
        A. Contacted and obtained from the OPM the IRS’ authorized agency plan for its
           intended use of the VERA and VSIP authority and determined whether the plan
           included all of the information required in the Homeland Security Act of 20023 for
           both authorities.
        B. Contacted the OPM to determine whether the IRS provided notification of any
           subsequent plan changes and whether it provided the OPM with interim reports.
        C. Obtained a TIMIS list of the 408 employees that accepted a VERA payment and/or a
           VSIP under the Resource Optimization Study between January 14, 2004, and
1
  The TIMIS is the automated personnel and payroll system for storing and tracking all employee personnel and
payroll data.
2
  A measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable days in a
particular fiscal year. For Fiscal Year 2005, 1 FTE was equal to 2,088 hours. For purposes of this report, we are
using the terms FTEs, employees, and positions synonymously.
3
  Congress expanded agencies’ ability to use the VSIP authority through passage of the Chief Human Capital
Officers Act of 2002, which constitutes Title 13 of the Homeland Security Act of 2002 (Pub. L. No. 107-296,
§ 1313, 116 Stat. 2135, 2291-96 (2002) (codified as amended at 5 U.S.C. §§ 3521-25 [2000])). Title 13 of the
Homeland Security Act of 2002 may also be cited as the Chief Human Capital Officers Act of 2002,
Pub. L. No. 107-296, tit. 13, 116 Stat. 2135, 2287 (2002).

                                                                                                          Page 12
                      Staff Reductions in Support Operations Did Not Result in
                         Significant Increases in Mission Critical Positions



            October 31, 2005, to determine whether they met the general requirements and were
            in positions identified in the plan the IRS submitted to the OPM.
        D. Determined whether making additional VERA and/or VSIP authority offers after final
           notices had been given resulted in disparate treatment of employees or unnecessary
           costs.
III. Determined whether the Human Capital Office, Office of AWSS, or Small Business/
     Self-Employed Division inappropriately created new positions, hired to fill vacated positions,
     or provided employment to outside candidates in functions where the VERA and VSIP
     authority were offered.
        A. Obtained lists from the Human Capital Office, the Office of AWSS, and the Small
           Business/Self-Employed Division of the actual positions identified for transfer to
           front-line service and compliance positions and determined the current status of those
           positions.
        B. Determined whether any of the positions that had been identified for elimination were
           filled by reviewing the 508 new hires, promotions, and position changes for human
           resource-type positions in the Human Capital Office, Office of AWSS, and Small
           Business\Self-Employed Division from January 1, 2004, through
           September 30, 2005.
        C. Interviewed management to determine the rationale for filling vacated positions or for
           creating any new positions in identified areas.
IV. Determined whether the IRS calculated the actual cost savings through use of the VERA and
    VSIP authority under the Resource Optimization Study.
V. Determined the extent to which the IRS as a whole accomplished the IRS Commissioner’s
   stated goal of increasing front-line tax professional positions by 12,000 during FYs 2004 and
   2005.




                                                                                           Page 13
                   Staff Reductions in Support Operations Did Not Result in
                      Significant Increases in Mission Critical Positions



                                                                             Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Acting Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin P. Riley, Audit Manager
Susan A. Price, Lead Auditor
Gene A. Luevano, Senior Auditor
Stephanie K. Foster, Auditor




                                                                                    Page 14
                   Staff Reductions in Support Operations Did Not Result in
                      Significant Increases in Mission Critical Positions



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Chief Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A:F
       Chief Financial Officer OS:CFO
       Chief Human Capital Officer OS:HC




                                                                         Page 15
                        Staff Reductions in Support Operations Did Not Result in
                           Significant Increases in Mission Critical Positions



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; buyouts were given to 42 employees in positions that
    were not identified in the IRS’ request to the OPM for buyout authority. Those buyouts
    totaled $1,007,590. The information IRS management provides to the OPM must be accurate
    so the OPM can make informed decisions when approving buyout authority (see page 7).
                                36 employees x $25,000               $900,000
                                6 employees x various
                                                                     $107,590
                                amounts under $25,000
                                Total = 42 employees               $1,007,590

Methodology Used to Measure the Reported Benefit:
We obtained from the TIMIS1 a list of employees who had received buyouts during the time
period for which the IRS had intended to use buyout authority as part of the Resource
Optimization Study (January 14, 2004, through October 31, 2005). We selected the employees
who were in positions covered by the Study and compared those employees by series, grades,
and locations to the plan submitted by the IRS to the OPM for buyout authority. A total of 408
employees received buyouts during that period, 42 of which were not specifically identified in
the plan.

Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; buyouts were given to 14 employees who had previously
    been given an opportunity to take a buyout. At the time of the previous offer, the employees
    had been informed no additional buyout opportunities would be given. The employees had
    already received RIF notices and, because most of the fiscal year had passed (11 months of
    the 12 months in FY 2005), there was no apparent compelling need to offer the last buyouts.
    The August 2005 last “final” offer cost the IRS $328,559 (see page 7).
                                14 employees x $25,000 or less = $328,559

1
 The TIMIS is the automated personnel and payroll system for storing and tracking all employee personnel and
payroll data.

                                                                                                       Page 16
                    Staff Reductions in Support Operations Did Not Result in
                       Significant Increases in Mission Critical Positions



Methodology Used to Measure the Reported Benefit:
We obtained a TIMIS list of Human Capital Office employees who had taken buyouts during the
last 30 days of FY 2005. We compared that with a list provided by the Human Capital Office of
employees who had received RIF notices and identified 14 employees who were on both lists.

Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; 5 employees were given buyouts at a cost to the IRS of
    $125,000. Then, new employees were hired for the same locations, in the same series, at the
    same grades, and with the same position descriptions (see page 7).
                             5 employees x $25,000 =     $125,000
                             Total                       $125,000

Methodology Used to Measure the Reported Benefit:
For the period January 1, 2004, through September 30, 2005, we obtained from the TIMIS a list
of newly hired employees, promotions, position changes, changes to a lower grade, and
reassignments for the areas in the Human Capital Office, Office of AWSS, and Small
Business/Self-Employed Division affected by the Resource Optimization Study. We identified
44 newly hired employees and compared the positions these employees were hired for with a
TIMIS list of positions for which employees had received a buyout. We identified five instances
in which positions vacated through the use of buyouts were filled by newly hired employees.




                                                                                        Page 17
      Staff Reductions in Support Operations Did Not Result in
         Significant Increases in Mission Critical Positions



                                                     Appendix V

Management’s Response to the Draft Report




                                                            Page 18
Staff Reductions in Support Operations Did Not Result in
   Significant Increases in Mission Critical Positions




                                                      Page 19
Staff Reductions in Support Operations Did Not Result in
   Significant Increases in Mission Critical Positions




                                                      Page 20
